<html>
<title> - TIANANMEN 25 YEARS LATER: LEADERS WHO WERE THERE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       TIANANMEN 25 YEARS LATER: 

                         LEADERS WHO WERE THERE
=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 30, 2014

                               __________

                           Serial No. 113-185

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
88-107                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14                               LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--5/20/14 

SEAN DUFFY, Wisconsin--5/
    29/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director

                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Yang Jianli, Ph.D., president, Initiatives for China.............     9
Major Yan Xiong, USA, author.....................................    21
Ms. Chai Ling, founder, All Girls Allowed........................    25
Mr. Zhou Fengsuo, co-founder, Humanitarian China.................    40
Mr. Chen Qinglin, activist.......................................    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Yang Jianli, Ph.D.: Prepared statement...........................    11
Major Yan Xiong, USA: Prepared statement.........................    23
Ms. Chai Ling: Prepared statement................................    28
Mr. Zhou Fengsuo: Prepared statement.............................    42

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
Yang Jianli, Ph.D.: Document 9 Communique........................    60
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement of Yang Jianli at 1996 hearing.......................    66
  Washington Post editorial dated January 19, 2011...............    69
  Statement of Pastor Bob Fu.....................................    70
  Statement of Chen Qinglin......................................    72


                       TIANANMEN 25 YEARS LATER: 
                         LEADERS WHO WERE THERE

                              ----------                              


                          FRIDAY, MAY 30, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9:32 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order. Good morning to 
everyone. Twenty-five years ago, the world watched as students 
from Beijing's Central Academy of Fine Arts unveiled a replica 
of the Statue of Liberty in Tiananmen Square. It was an amazing 
site to behold, this enduring symbol of liberty standing face 
to face with the dictator Mao Zedong's portrait. It was a 
moment when we all dreamed that the Tiananmen Square 
demonstrations would become a triumph for freedom and 
democracy. Unfortunately, China's Communist leaders sought to 
hang on to power through force. They sent tanks and soldiers 
into Beijing to ``clear the square'' on the evening of June 3rd 
and into June 4th.
    The beating, the bayoneting, the torture, and murder of 
students and the ubiquitous display of tanks turned the dream 
of freedom into a bloody nightmare. We have with us today five 
extraordinary witnesses to this tragic scene in world history, 
not just witnesses, but key players in the push for democracy 
in the People's Republic of China. These individuals are 
reminding us today, as they have so tenaciously since their 
exile, that the events of Tiananmen Square will never fade from 
memory, and they remind us of the longing for freedom that 
remains within the Chinese people.
    This week and next, we want to remember the extraordinary 
sacrifice endured by hundreds of thousands of peaceful Chinese 
democracy activists. Some may prefer, particularly in the 
business community and some politicians, to look past or to 
even trivialize the slaughter of innocents by Chinese soldiers, 
but the memory of the dead and those arrested, those who were 
tortured and exiled requires us to honor them, respect their 
noble aspirations for fundamental freedoms, and recommit 
ourselves to the struggle for freedom and human rights in 
China.
    The Government of China continues to go to astounding 
lengths to erase the memory of the Tiananmen demonstrations and 
their violent suppression. The Internet is censored, citizens 
holding private discussions or public commemorations are 
harassed and detained, and we still have no account by the 
government of those who died, those arrested, those disappeared 
or those executed.
    It is my promise, and I am joined by many of my 
distinguished colleagues in the House and Senate, that we will 
always remember, always, Tiananmen, as long as the Chinese 
people especially cannot discuss its significance openly 
without harassment or arrest.
    When the tanks rolled down the square on June 4, 1989, all 
of China suffered. Mothers lost sons, fathers lost daughters, 
and China lost an idealistic generation of future leaders. 
China's loss from one point of view could be seen as America's 
gain. Our witnesses today, exiled refugees from their native 
land, have contributed mightily to the American fabric. Out of 
tragedy and disillusionment they have created lives that make 
America stronger. They are entrepreneurs and pastors, business 
people and academics, members of the military, and civil 
society leaders.
    The Chinese Government may call them criminals and 
hooligans, a horrible slander, but one day soon, they will be 
called heroes. They already are heroes, but the people in China 
will recognize that they are truly remarkable heroes. The 
people testifying here today are also extraordinary people of 
conscience, and are all advocates for freedom and human rights, 
such as Chen Guangchang, Harry Wu, Wei Jingsheng, and a list of 
people, it is like a who's who of the best and the greatest and 
the most courageous the world has ever seen.
    There will always be those who want to downplay human 
rights in relations with China, but the people here today 
remind us that the people of China suffered for freedom, they 
bled for liberty and demanded justice, democracy, and an end to 
widespread corruption. These demands were made 25 years ago, 
they were made with a great deal of dignity and respect, and 
they were treated with harshness and murder, and they still, 25 
years later, can fire the imagination of the people of China.
    More than ever, the U.S. needs a robust human rights 
diplomacy with China. It has been lacking, sorely lacking. We 
need policies that actively promote human rights, freedom of 
speech, Internet freedom, and the rule of law. We must support 
the advocates for peaceful change and the champions of liberty 
and clearly signal our support for those seeking rights and 
freedoms for all of China's citizens, not only for those 
seeking to pad the economic bottom line. Such leadership is 
needed now because China is in the midst of a severe crackdown 
on human rights advocates and freedom of speech. Last year was 
the worst year since the 1990s for arrests, imprisonment of 
dissidents. At least 230 people have been detained for their 
human rights advocacy on top of all the others who are 
languishing in the laogai and in detention throughout the 
country.
    In the past month, Beijing has detained two more dozen 
activists for simply seeking to commemorate the Tiananmen 
anniversary in private, and China remains one of the worst 
offenders of human rights overall. It remains the torture 
capital of the world. I will never forget reading Manfred 
Nowak's, who was U.N.'s Special Rapporteur for torture, report 
on torture in China's. It was horrific. You are arrested. If 
you are a dissident, you are a religious believer, you will--
not maybe--you will be tortured. Religious freedom abuses 
continue with impunity, and ethnic minority groups face 
repression when they peacefully seek rights to their culture 
and language.
    Hundreds of millions of women have been forced to abort 
their precious babies because of a draconian attempt to limit 
population growth. China's one-child-per-couple policy is a 
demographic and human rights disaster that has no parallel in 
human history. The prevalence for having boys has led to gender 
imbalance and a mass extermination of baby girls. This is not 
only a massive gender crime, but a security problem as well. 
Experts are coming to the conclusion that China's gender 
imbalance will and already is leading to crime, social 
instability, worker shortages, and there has been a huge spike 
in human trafficking.
    I was the prime sponsor of the Trafficking Victims 
Protection Act, our landmark law here in the United States to 
combat sex and labor trafficking. Last year, and it should have 
been done much sooner, China was put on Tier 3, labelled an 
egregious violator, when it comes to human trafficking, and the 
major magnet for all of that is the fact of the missing 
daughters systematically exterminated since 1979, and there are 
tens of millions of girls, gone, exterminated, killed because 
of sex-selection abortion, and now because of that men can't 
find wives, there is a huge gender imbalance, so the 
traffickers have rolled into China as never before to sell 
brides and to sell women as commodities, and there also is the 
possibility, and we have heard testimony here at previous 
committees I have chaired, where it could even lead to war 
because of the instability that the one-child-per-couple policy 
has bred.
    Despite the country's stunning economic growth over the 
past two decades, Beijing's leaders still remain terrified of 
their own people. China's ruling Communist Party would rather 
stifle, imprison or even kill its own people than to defer to 
their demands for freedom and rights. Repression has not dimmed 
the desires of the Chinese people for freedom and reform. There 
is an inspiring drive in China to keep fighting for freedom 
under the very difficult and dangerous situations and 
conditions.
    As our witnesses today will surely attest, the United 
States must demonstrate clearly and robustly that democratic 
reforms and human rights are critical to their national 
interest, to the global interest, and our own. We want to see a 
more democratic China, one that respects human rights and is 
governed by the rule of law because a more democratic China 
will be productive and peaceful rather than a strategic and 
hostile competitor.
    The future also should be in China's interests, this 
future, because there is a growing evidence that the most 
prosperous and stable societies are those that protect 
religious freedom, the freedom of speech, and the rule of law. 
I believe that some day China will be free. People of China 
will be able to enjoy all of their God-given human rights, and 
the nation of free Chinese women and men, will honor, they will 
applaud, and they will celebrate the heroes of Tiananmen Square 
and those who sacrificed so much over the years, and the people 
at this table, the true heroes, will be honored mightily and 
forever in China because they sacrificed so much.
    I would like to yield to Mr. Pittenger for comments he 
might have.
    Mr. Pittenger. Thank you, Chairman Smith. Thank you for 
inviting me to participate in this hearing today, and I want to 
personally thank you for your 30 years of dedication that I 
have known you for those in their pursuit of freedoms of 
conscience throughout the world. I would also like to thank the 
witnesses who are here to testify before us today. Next week 
will mark the 25th anniversary of Tiananmen Square massacre.
    It was June 4, 1989, when the Chinese Army rolled into 
Tiananmen Square in tanks and began to fire indiscriminately on 
the peaceful protesters. These protesters were gathered 
peacefully, seeking a more democratic China, a China that 
allowed for basic human rights, freedom of speech, freedom of 
expression, freedom of assembly, and to end government 
corruption. Hundreds, if not thousands, were massacred for 
peacefully seeking rights which should be afforded to every 
person around the world.
    To this day in many provinces in China, it continues to 
aggressively suppress the rights of citizens, and I am 
committed to continue to work with Chairman Smith and this 
committee and on the Congressional-Executive Commission on 
China to bring light on to these issues. I have worked for the 
past 25 years with the underground Christian church. I have 
been able to see firsthand the impact of what it means to allow 
Christians to live freely and what they can accomplish. The 
integrity, the loyalty, and the faithfulness of Christian 
believers demonstrates the powerful impact that their freedom 
can have on a culture, and even an economy.
    Unfortunately, as Ronald Reagan once said, our Nation, too, 
has a legacy of evil with which it must deal. Americans dealt 
with discrimination based on heritage, gender, and political 
affiliation. However, one of the reasons America was able to 
eradicate slavery was the free exchange of different political 
points of view. Through a very robust debate of ideas, our 
Nation has become stronger, even through a Civil War, where we 
lost over 600,000 lives.
    The concerns I share today are in the spirit of humility as 
America faces her own problems, those with drugs, with 
violence, with pornography, still prevailing discrimination, 
among others. My interest, though, is not to be condescending, 
but to recognize how both China and the United States can and 
must improve their cultures. My honesty about China is 
consistent with my acknowledgment and honesty about our own 
country. Again, I would like to thank the witnesses for 
appearing before us today. I look forward to your testimony, 
and I am again grateful to Chairman Smith for calling this 
hearing.
    Mr. Smith. Mr. Pittenger, thank you so very much. I would 
like to now yield to my distinguished friend from Texas, vice 
chairman of the subcommittee, Mr. Weber.
    Mr. Weber. Thank you, Chairman Smith, thank you for calling 
this hearing. The spirit of courage and freedom will outlast 
steel tanks and cowardice. There is probably no greater torture 
than believing you have to maintain control on other human 
beings by weaponry and by those kinds of cowardly acts we 
witnessed in Tiananmen Square.
    The totalitarian Chinese Government must not be allowed to 
last. Democracy must prevail and be the order of the day. You 
can count on us, especially with Chairman Smith at the helm, to 
be steadfast and to be your friends in the fight for keeping 
liberty and freedom on the forefront. We count on you for being 
that example, having that courage, the guts, the fortitude. You 
all are an inspiration to us.
    Democracy will flourish, freedom will survive, because of 
you and others like you. So I thank you all for being here, 
thank you for your courage, your willingness to participate, 
and don't ever give up. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Smith. Mr. Weber, thank you so very much. Yield to my 
good friend and colleague, Mr. Stockman.
    Mr. Stockman. Thank you. I can't believe it has been 25 
years, quite frankly. It has gone by rather quick in a way, and 
I, again, like my colleagues, thank our good friend, the 
chairman, for being so steadfast in fighting with and fighting 
for individuals that want freedom. Twenty-five years ago in 
Tiananmen Square, they built a Statue of Liberty, and many of 
my friends were excited that the Chinese people would be free, 
and much to our dismay, the government hired--I believe that 
this is correct--they couldn't use local military men, so they 
got people from the countryside to come in, and they even said 
that they used amphetamines and things to hype them up to come 
in there.
    I think, personally, there has needed to be a distinction 
between the government and the people. The government has made 
statements that United States hate the Chinese people, that we 
don't respect the Chinese people. That is not true. To the 
contrary, we appreciate the long history of China, we 
appreciate the warm and gracious people of China. What we don't 
appreciate is a small collective of people to impose their will 
by force on others.
    I think 25 years ago, to be quite frank with you, and my 
colleagues, I think we let you down. Our response was wrong. We 
didn't speak up. And it reminds me about how back in Germany 
when there was another government taking over and pushing 
people around, at the end of that day, they said that by the 
time they came for me, there would be no one left to speak up. 
I hope these hearings today will demonstrate that we are still 
willing to speak up.
    I heard a very compelling story about the mothers of 
Tiananmen Square that lost their loved ones, and one of these 
mothers said after these many years, she still has hope that 
China will redirect its compassion for its own people. This is 
really a story about compassion that the government needs to 
have on its own people. I hope our Nation will not make the 
same mistakes we made 25 years ago, and that this time we will 
stand with you, both in spirit and in work, and not just in 
words or on Twitter with hashtags, but in actual action, and 
with that I yield back my time. Thank you.
    Mr. Smith. Thank you so very much, Mr. Stockman. I would 
like to yield to my friend, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
being here today, and some, as they would report this as it is 
another hearing, it is another hearing on Tiananmen, it is 
another hearing on China. I know in my very brief tenure here, 
I probably have been in at least six or seven different 
hearings that talked about human rights violations in China, 
specifically three or four hearings on this particular 
anniversary that we are about to recognize here in just a 
couple of days, and many would say, well, Chairman Smith 
continues to have hearings over and over again, and what good 
does it really have? What effect does it have? And yet I would 
like to remind those of you that are here to testify today to 
not give up hope because there was a gentleman by the name of 
William Wilberforce many years ago that, day in and day out, 
fought to abolish slavery, and some 17 or 18 years he would 
come and he would petition his government on behalf of a blight 
on our history that we know today as slavery.
    And yet we also know the rest of the story, that William 
Wilberforce eventually prevailed because day in and day out it 
was a calling. It is the same with our chairman, it is the same 
with many of us here in Congress that we will continue to fight 
until human trafficking, human rights abuses, and really the 
freedoms that many people not only in China but in our country 
have died for, and so we have a very good reminder because we 
just passed Memorial Day where we have a number of our veterans 
who have fought for freedom, many of them shedding their blood 
and giving the ultimate sacrifice for a people that they would 
never meet, for a people that would never be able to say thank 
you.
    And so on behalf of them I am proud to stand with our 
chairman to continue the fight in this Wilberforce effort to 
make sure that this doesn't happen again, and as we see this, 
the greatest way that we can diminish what happened 25 years 
ago is to allow the future to be a new future where human 
rights and respect for life are not only encouraged, but lifted 
up, and I thank you for your boldness to be here and your 
efforts, and I yield back, Mr. Chairman.
    Mr. Smith. Thank you so very much, Mr. Meadows. We are now 
joined by chairman of the Europe, Eurasia, and Emerging Threats 
Subcommittee, Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much, and I just want to 
thank you, Mr. Chairman. This man is such a heroic champion of 
human rights, and he has dedicated his life. There are people 
all over the world that wouldn't be alive today, and there 
would be freedom movements all over the world that would have 
no hope of success if it wasn't for the dynamic energy that you 
have put into this here in Congress, and I am very pleased to 
sit with you and actually work with you in providing, and am 
grateful for your leadership.
    Today we are commemorating and we are looking at what 
happened 25 years ago at something that has had dramatic impact 
not only to the people of China, but the entire world, and what 
happened in Tiananmen Square has dramatically impacted on the 
life that we live today in the United States, and of course, 
the people of China.
    I worked with Reagan in the White House, I was a special 
assistant to the President, and I was a speech writer for 
President Reagan for 7 years. Had he been President of the 
United States when this happened, this would be a different 
world and China would be a different place.
    It is a disgrace that the United States did not make the 
leadership of the Communist Party pay for the crime that they 
committed against the people of China. I believe had the 
President of the United States at that time, George Herbert 
Walker Bush, let the leadership of the Communist Party know 
that if they massacred the people in Tiananmen Square, there 
would be a major price for them to pay, that massacre wouldn't 
have taken place, and today there would not only be democracy 
in China, but the world would be a safer, a more peaceful 
place, and that--and the fact is, Mr. Chairman, the Communist 
Party of China and the perpetrators of that crime have still 
not paid the price.
    We still permit China to basically enrich itself, the 
Chinese leadership enriching themselves in suppressing the 
people of China, and we, as Americans who love freedom, are not 
taking a stand and making it real that are making our words 
real. You know, you can talk about freedom all day long, and 
there is a saying, ``Don't talk about saving the oppressed 
unless you are willing to take on the oppressor,'' and we have 
never been willing to do that. And Mr. Chairman, with your 
leadership, maybe we can bolster that commitment around the 
world so that we will take on these tin pot dictators and these 
monstrous regimes like in China today. Thank you.
    Mr. Smith. Chairman Rohrabacher, thank you for your 
comments and for your leadership. For all of us, to have a man 
who helped write and was a speechwriter for Ronald Reagan, and 
Reagan had some of the finest and most in-depth speeches of any 
President that had meaning behind it. It wasn't empty calories 
or words, and to have one of the men who wrote those speeches 
here speaking for human rights day in and day out is such a 
huge honor.
    I would like to now introduce our five extraordinary 
leaders who were there at Tiananmen Square, beginning first 
with Dr. Yang Jianli, who is the president of Initiatives for 
China, a grass-roots organization dedicated to promoting 
democracy in China. A survivor of Tiananmen Square, Dr. Yang 
returned to China following the completion of his academic 
studies in 2002. Upon arrival he was promptly arrested and held 
as a political prisoner for 5 years. Now a U.S. resident, he 
continues to promote democracy in China through a variety of 
avenues, including leadership roles in the Chinese Democracy 
Movement, the Foundation for China in the 21st Century, and the 
Interethnic-Interfaith Leadership Conference. He has received 
numerous awards and recognitions for his work.
    I would like to note parenthetically that back in 1996, 
matter of fact, in December 1996, President Clinton unwisely 
invited the Defense Minister of China, his name was Chi 
Haotian, to the White House. Chi Haotian was the operational 
commander of the forces that fired upon, bayoneted, and killed 
and maimed so many students and democracy activists. I 
protested it, as did many others. President Clinton gave Chi 
Haotian a 19-gun salute at the White House. He should have sent 
him to The Hague for crimes against humanity but gave him all 
of these honors.
    While he was here he went to the Army War College, and a 
young officer asked about people dying on Tiananmen Square, and 
Chi Haotian said that nobody died at Tiananmen Square. Two days 
later, I put together an emergency hearing of my subcommittee. 
Dr. Yang was there and bore witness, and I will never forget, I 
have his very words, and without objection I will put his full 
statement into this record, but he said,

        ``I saw many people killed on Chang'an Street. At 6 
        a.m. it was already light. I was on a bike, and walking 
        with me were some students who had retreated from the 
        square and returning to their schools. As we arrived at 
        Chang'an Street we saw four tanks coming from the 
        square were going west at high speed. The two tanks in 
        front were chasing students. They ran over bodies. 
        Everyone was screaming. We counted 11 bodies.''

Then he talked about a third tank that shot tear gas. They had 
four or five people with machine guns. All of that he bore 
witness right here. We invited Chi Haotian and the Chinese 
Embassy to send anybody they would like to explain his 
egregious lie that he made while here in Washington. We had an 
empty chair sitting right there.
    So Dr. Yang thank you for that, and I will put your full 
statement in this record because past is prologue, the lies and 
the deceptions continue to this day.
    We will then hear from Major Yan Xiong who is a chaplain in 
the United States Army. A survivor of the Tiananmen Square 
massacre, Major Xiong was one of the student leaders who 
initiated the democratic movement in 1989. Following the 
massacre he was placed on the Chinese Government's 21 most 
wanted students list. He was promptly arrested and imprisoned 
for 19 months. Major Xiong was granted political asylum in the 
U.S. in 1992, joined the U.S. Army in 1994, and was 
commissioned as an Army chaplain in 2003.
    He continues his commitment to democracy in China following 
his arrival, most notably through his 3-year chairmanship of 
the Party for Freedom and Democracy of China and the Second 
Party Representative Conference.
    We will then hear from Ms. Chai Ling, who now is the head 
of a group called All Girls Allowed, and I have to say, having 
known Chai Ling since she was released and remember watching 
her statements as one of the student leaders, she is a modern 
day Esther, speaking truth to power, especially Chinese 
dictatorship.
    She, again, is the founder of All Girls Allowed, an 
organization dedicated to exposing human rights violations 
caused by China's one-child policy and the resulting gendercide 
in order to restore life, value, and dignity to women. A leader 
of the 1989 Tiananmen Square student movement, she was named 
one of Chinese Government's 21 most wanted students following 
the massacre.
    Consequently, she fled from China to Hong Kong, ultimately 
seeking asylum in the U.S. She has been nominated for the Nobel 
Peace Prize two times for her involvement in Tiananmen Square. 
Ms. Chai is also the founding president of Jenzabar, a higher 
education software company, and its associated humanitarian aid 
foundation.
    We will then hear from Mr. Zhou Fengsuo, who is cofounder 
of Humanitarian China, an organization that offers humanitarian 
aid to prisoners of conscience. Another key student leader of 
the 1989 democratic movement in Tiananmen Square, Mr. Zhou was 
placed on the 21 most wanted students list and arrested 
following the massacre. He was imprisoned for a year. After 
coming to the U.S. in 1995, Mr. Zhou continued to advocate for 
freedom and democracy in China. In 2000, he was the leading 
plaintiff in a class action suit against Li Peng, the Premier 
of China during the massacre, for crimes against humanity. Mr. 
Zhou also served as the president of the Chinese Democracy 
Education Foundation.
    Then we will hear from Mr. Chen Qinglin, an advocate for 
democracy in China. A student at the time of the Tiananmen 
Square massacre, Mr. Chen was imprisoned for 6 years for 
attempting to form an opposition party following the massacre. 
Additionally, he was one of the first 303 signatories to that 
wonderful human rights manifesto known as Charter 08, which was 
created by over 350 Chinese intellectuals and human rights 
activists.
    In 2010 he led the Program of Psychosocial Support for 
Domestic Human Rights, a Chinese organization that provides 
psychological services for Chinese human rights defenders who 
have been tortured by the government. I point out 
parenthetically as the sponsor of the Torture Victims Relief 
Act, the current law that deals with those who have been 
tortured and the PTSD that they suffer, his initiative to deal 
with the scars, particularly the emotional scars of those who 
bear unbelievable torture at the hands of the Chinese 
dictatorship has helped many, many people get some semblance of 
normality back to their lives. He lived in China until 2014 
when he came to the U.S. to continue his academic pursuits.
    Dr. Yang, if you could begin.

  STATEMENT OF YANG JIANLI, PH.D., PRESIDENT, INITIATIVES FOR 
                             CHINA

    Mr. Yang. Mr. Chairman, thank you for this timely hearing. 
As far as I can remember, this is at least the 15th hearing you 
have held on human rights issues in China. Thank you very much 
for your leadership, and your statements, your words, actions, 
and that of other congressional leaders made clear that we have 
not been fighting not alone. Thank you very much for your 
leadership and for your unwavering support.
    Today I will not repeat myself, my personal account of the 
Tiananmen massacre. Instead I will try to provide you, Mr. 
Chairman and other congressional leaders, a window through 
which probably will help you understand better the political 
situation in China and the direction it has taken.
    Twenty-five years ago the Chinese students and citizens in 
Beijing and across China demanded a clean government and 
freedom of expression and media, but today the accommodations 
in these areas are much worse than before in many ways. For 
example, when the new leadership led by Xi Jinping took power 
in 2013, it issued a secret document which boils down to this. 
I quote,

        ``We must not permit the dissemination of opinions that 
        oppose the party's theory or political line, the 
        publication of views contrary to decisions that 
        represent the central leadership's views or the spread 
        of political rumors that defame the image of the party 
        or the nation.''

    It sounds like something from the dark ages, but it is 
happening today in China. China has now fallen into its own 
dark age. Not only has the party state started a systematic 
mafia-style campaign to silence any dissenting voice by 
physically removing through democracy and human rights 
activists through massive arrests, forced disappearances, 
severe sentences, but most seriously, it has launched an ever 
larger campaign to control the Chinese people's minds.
    The Chinese party state openly denounces the American and 
Western values and political system, which we all cherish and 
vows to eradicate the so-called seven perils that endanger the 
party state's perpetual rule of China, including Western 
constitutional democracy, universal values of human rights, 
independent press, a civil society, free markets, 
neoliberalism, and a few others. This campaign to completely 
reject Western ideas is actually an essential part of Xi 
Jinping's Chinese dream. It is much worse and farther reaching 
than anti-Bourgeois spiritual pollution campaign during the 
mid-1980s which the students of Tiananmen Square demanded to 
overturn 25 years ago.
    Mr. Chairman, I have to sadly report to you that two 
activists have been detained and charged with leaking this 
infamous Document 9. They are Ms. Gao, whom you may already 
know, and a gentleman, an author of several influential books 
and the highest ranking official detained in this round of 
crackdowns.
    There was a chance 25 years ago for political reform and a 
peaceful transition to democracy within the Chinese Communist 
Party, but with Xi Jinping's total rejection of universal 
values and democracy and his denial of free thought, the 
opportunity is now gone. The key questions that the United 
States must ask are, can a fascist party state that ruthlessly 
kills its own people, silences any opposition voices, and bans 
people's intellectual freedom rise peacefully? What danger does 
it pose to the international order and peace? Mr. Chairman, to 
me the answer is pretty clear. China has already extended its 
domestic brutality and ruthlessness into the international 
arena by bullying its neighbors, and without democracy it will 
not rise peacefully.
    Finally, I ask to submit the Document 9 for the record.

    [The prepared statement of Yang Jianli follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              

    Mr. Smith. Without objection, so ordered. We will make that 
a part of the record, and I thank you so much.
    I would like to now yield to Major Yan Xiong.

           STATEMENT OF MAJOR YAN XIONG, USA, AUTHOR

    Major Xiong. Thank you, sir. Good morning, sir. Thank you 
for inviting me to join you here today. I would like to take a 
moment to reiterate that I am here today in my personal 
capacity, and what I say today does not represent the views of 
the Army or the Department of Defense, the Pentagon.
    Chairman Smith, Ranking Member Bass, members of the 
subcommittee, thank you for inviting me to testify today in 
remembrance of the events at Tiananmen Square 25 years ago in 
June 1989. My own experience of that historic event remains 
vivid in my memory.
    On the evening of June 3, 1989, I was at Beijing University 
listening to a radio broadcast that described the events taking 
place. Communist military troops had marched into the Forbidden 
City and opened fire on citizens and students. Immediately a 
friend and I rode our bicycles toward Tiananmen Square. After 3 
miles, when we passed by the People's University, we saw 
thousands of people and students holding hands to form a wall, 
preventing people from passing them. They shouted at people 
trying to break through, Don't go, don't go, they will kill 
you.
    So eventually, my friend and I forced ourselves past the 
barrier and continued toward Tiananmen Square. As we went, we 
found more people had formed human walls and tried to persuade 
anyone going toward the danger. However, I felt I had to go 
since I was one of the student leaders who initiated the 
democratic movement.
    So to force our way through the people, we had to abandon 
our bicycles and make our way forward on foot. As we 
approached, we saw the People's Liberation Army had tanks, 
vehicles and troops moving into Tiananmen Square. Soldiers with 
helmets and AK-47s were randomly shooting at the protesters as 
they chanted slogans and they tried to hold their ground. So my 
friend and I crept forward, the sounds of bullets shooting, 
crying, and the tanks blended together.
    As we continued to move forward, we saw horrific scenes of 
students and citizens who were both wounded and dying. Few knew 
first aid, and I remember having feelings of helplessness as 
people cried out for medical assistance. I knew I needed to 
report the events taking place, so I found a phone booth and 
called my wife, I asked her to call the Beijing University 
radio station to tell the truth, that the PLA soldiers had 
opened fire on students and citizens and that hundreds were 
killed. I continued to relay new information to the radio 
station until the early morning, early hours of the morning.
    After the protest was broken up, I was put on the list of 
most wanted student leaders. After my capture, I endured nearly 
2 years in a Chinese prison. It was not until after leaving 
prison that with the help of an underground church member, I 
became a believer in God and I began my journey in the 
Christian faith.
    I arrived in the United States in 1992, and just 2 weeks 
later was able to celebrate the Fourth of July. I saw, then, 
the meaning of freedom, the freedom of expression, the freedom 
of religion, and the freedom from fear that all Americans 
enjoy. So since the time of my baptism as a Christian, I also 
found the freedom that knowing God provides.
    As a commissioned officer in the United States, I serve to 
protect these freedoms. As an Army chaplain, my job is to 
assist my commander to ensure that all members of the Army 
family receive their religious support they need to freely 
exercise their faith according to the Constitution.
    As we mark the 25th year since the Tiananmen massacre, I am 
very thankful that the United States continues to remember and 
honor the lives that were lost and continues to promote the 
struggle for democracy and freedom in our world. It is my 
prayer that the lives taken at Tiananmen Square will continue 
to live on in our memory and inspire us to continue working 
toward a better world free from tyranny and persecution that 
upholds the rights and the freedoms for all people. Thank you. 
Thank you all for your hearing.
    Mr. Smith. Chaplain, thank you so very much for your 
testimony.
    Major Xiong. Thank you.
    [The prepared statement of Major Yan Xiong follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. I would like to now yield to Chai Ling.

     STATEMENT OF MS. CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai. Thank you. Thank you, Chairman Chris Smith and 
honorable members of the Committee of Foreign Affairs. Thank 
you all for holding this hearing. Chairman Smith, thank you for 
your tireless efforts in upholding human rights for all the 
people in China and in the world. Today, we know Wilberforce 
has a new name, and that name is Chris Smith.
    I want to thank my Lord Jesus Christ and Savior, and 
declare that it is Him who led me to the truth so that I can be 
testifying today on the hope we have found in Christ Jesus for 
a new China. My message is a Chinese dream through Jesus. I 
want to thank my husband, Bob, our board member Quinn and our 
staff Elizabeth who have made an effort to be here to 
commemorate and support me in this special journey on this 
unique anniversary date.
    I will testify to the following three points: What kind of 
freedom did we want of China 25 years ago at Tiananmen? What is 
our hope today for freedom? And how can the China dream be 
achieved?
    The dream and freedom we wanted for China 25 years ago was 
freedom from fear, freedom from injustice, freedom from lies 
and deceit, and freedom from wrongful imprisonment and false 
accusations. I want to use three stories of real people's lives 
to illustrate what it was like without that freedom.
    This is a young woman, Liu Jinfeng. She was sexually 
assaulted by her family members, became homeless, was sold as a 
bride, and was bullied, beaten, and raped by her abuser. She 
was beaten to half dead. For self-defense, she killed her 
abuser, but because of this she was executed at the young age 
of 20.
    Another case is a young woman called Tao Jing. She was 20 
years old and accused of carrying drugs for her boyfriend. She 
was killed at such a young age and became the youngest female 
in China who was executed in the past 50 years.
    The third case is the story of Feng Jianmei. On June 2, 
2012, she was dragged into a forced abortion clinic, a poison 
injection was injected into her tummy, and her baby was killed 
within her womb. She was devastated.
    And so that is not just these three women's stories, these 
are stories for every Chinese woman, and that struggle still 
continues to set the people in China free. Even though 25 years 
later there is still no accountability for the leaders who 
ordered the killings of 1,000 people on June 4, 1989, even 
though 25 years later there is no accountability for the Family 
Planning Committee people who killed over 400 million babies 
and still continue to do so today, even though 25 years later 
no accountability for the Communist Party officials or the 
family members who have enriched themselves at the expense of 
the hard working Chinese people, be warned: The days of justice 
are coming soon.
    So why do I say so? What is our hope for freedom today? 
Twenty-five years ago, China's former reformer leader was 
advocating for three reforms--economical, political, and 
spiritual. However, Deng Xiaoping only allowed China to have 
one, so China today has evolved into an economic dictatorship 
with no political reform.
    However, despite the brutal oppression, forced abortions, 
and religious persecution, China is going through a powerful 
and unprecedented spiritual revival. The human heart can't be 
satisfied by materialism alone. As Jesus said, man does not 
live on bread alone, but on every word that comes from the 
mouth of God. Even the President Xi Jinping recognized that 
China's modernization has left a moral vacuum filled with 
materialism, corruption, and greed. However, his prescription 
for these things, the ``new China dream,'' is just more of the 
same--building a national dream on the basis of sacrificing 
individual rights.
    Communism, despite its beautiful promises for equality and 
happiness, only delivers death and destruction. That is the 
painful truth we discovered on the night of June 3rd and on the 
morning of June 4th. No society built on the belief system of 
denying God and denying God's precious creations can bring life 
or hope. Nevertheless, we do rejoice when we hear President Xi 
talk about the new China dream, a dream about a great revival 
of the nation of China, a dream like Deng Xiaoping's.
    When he first came to power, he instructed his team to 
study how to transition China into freedom and democracy, but 
for some reason unknown, he then lost his way. So today, I want 
to come along to offer President Xi the truth I have discovered 
after spending 48 years of searching at the great cost of many 
sacrifices. That truth is that Jesus is the way, the truth, and 
the life. No one comes to God except through Jesus.
    My journey of my search and discovery has been written into 
my book, ``A Heart for Freedom.'' Anyone here who is interested 
can have a free copy. The vision we have for a China dream as 
established by God will look like the following: It will be 
like one life under God, one family under God, one church, one 
community under God, one nation under God, one world under God. 
I do want to make clear, this is not about forcing religion on 
anybody, but allowing people to freely choose God and exercise 
their beliefs.
    I will explain about the bigger picture in detail later if 
I have the opportunity, but the cornerstone of this society 
will be love. It will be loving God, loving ourselves, and 
loving others as we love ourselves. It is what is in the Ten 
Commandments.
    So how can we achieve the China dream? Today's Chinese 
leaders have a great opportunity to achieve this God-given 
China dream. We applaud President Xi's father, Xi Zhongxun for 
reportedly standing up against the massacre. We applaud 
President Xi's recent reforms on China's human rights 
practices, including merging the National Population and Family 
Planning Committee and the Ministry of Health, which some say 
is a face-saving way to abolishing the family planning army. We 
applaud his easing of the one-child policy into a selective 
two-child policy. We encourage him to continue to remove 
restrictions to allow a be-fruitful-and-multiply policy. We 
also applaud him for abolishing labor camp systems. These are 
great beginnings toward righteousness and justice. In the past 
25 years, our hope was mostly misplaced on various leaders' 
actions, but not anymore.
    Let this year mark the new beginnings that our hope is no 
longer rooted in any leaders or any individuals, but in God 
alone. If it is God's will to free China, he alone can 
accomplish that, and indeed, God speaks about the Chinese dream 
through Isaiah 9:6-7. He said,

        ``For to us a child is born, to us a son is given, and 
        the government will be on his shoulders, and he will be 
        called Wonderful Counselor, Mighty God, Everlasting 
        Father, Prince of Peace. Of the greatness of his 
        government and peace, there will be no end. He will 
        reign on David's throne and over his kingdom, 
        establishing and upholding it with justice and 
        righteousness from that time on and forever. The zeal 
        of the Lord Almighty will accomplish this.''

    That child is Jesus. He was born 2,000 years ago. Listen to 
this: The promise of a just nation does not depend on any free 
will to choose between good and evil, but on the zeal of the 
faithful and trustworthy Almighty God. That is what our hope 
relies on, and God has indeed accomplished it. When Jesus died 
on the cross for humanity, his last words were, ``It is 
finished.''
    So today, the task of bringing freedom to China is 
finished. It is no longer in the hands of any leader, but in 
the mind of every Chinese person who hears the good news and 
chooses for themselves if they want to choose Jesus and be set 
free. I made that decision to choose Jesus 4\1/2\ years ago. My 
dear friend, Zhou Fengsuo, took me to a prayer meeting event on 
the June 4th anniversary 20 years ago, and 6 months later I 
offered my soul for the Lord to take. Six months later God 
allowed things to happen. On December 4th, exactly 6 months 
later, He brought me to Him. That was not an easy decision, but 
I can testify, despite the fact that today I still cannot go 
back to China, despite the fact that the regime of China has 
not changed, despite the fact that the future still remains 
uncertain and unknown, that Jesus has set me free, and I am 
free indeed, physically, emotionally, and spiritually.
    God has no favoritism. The same choice is available to all. 
Where the spirit of the Lord is, there is liberty. So today it 
is my fervent prayer that the leaders of China will also choose 
freedom and embrace political and spiritual reform, for there 
is no force on earth that can stop God's work to bring freedom 
to His people. The pharaohs could not do that, and neither 
could the Babylonians. Certainly, the Chinese Communists are no 
match for the will of the Almighty God. They can continue to 
choose to do nothing.
    Mr. Smith. Thank you. We are going to have to----
    Ms. Chai. Yes, I know, I am sorry.
    Mr. Smith. We do have questions coming up.
    Ms. Chai. Of course. I will finish the rest later. Thank 
you.
    Mr. Smith. Thank you. I appreciate your testimony.

    [The prepared statement of Chai Ling follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              

    Mr. Smith. I would now ask that Zhou Fengsuo, if you could 
proceed.

 STATEMENT OF MR. ZHOU FENGSUO, CO-FOUNDER, HUMANITARIAN CHINA

    Mr. Zhou. Mr. Chairman and members of the subcommittee, 
thank you for inviting me to this event. This is a day for 
remembrance and celebration. I would want to thank this 
committee for being such a powerful voice for freedom in China, 
not only today, but for many years in the past, and especially 
to Mr. Smith.
    My name is Zhou Fengsuo. I and my family are grateful for 
the freedom we enjoy as Americans now. Twenty-five years ago, I 
was deeply involved in organizing the demonstration on 
Tiananmen Square. It is the greatest honor of my life that the 
Communist government, which made up its list of so-called 
Tiananmen 21, designated me as number 5 on the list after Chai 
Ling. That was the first time my name showed up in any media. I 
did not deserve that honor, for there are many others who I 
know worked harder and fought more bravely, but I will always 
be proud of my work in helping organizing the Tiananmen 
protest.
    I was responsible for building the networks that provided 
medical support while millions poured in from all corners of 
Beijing, there was an ambulance every 5 minutes, and there was 
no traffic accident ever, and through that network, many 
people, for the first time in their life, were able to speak of 
their hope for a better China, their love for freedom and 
democracy. That was a festival of hope and freedom. That is 
what I will never forget.
    I firmly believe when history books of the 21st century are 
written, this protest will be seen as a major step in bringing 
China to freedom and democracy that I know will come, and that 
is why for many years, for the last 25 years every year there 
are people in China who risk their lives, their freedom to 
commemorate the dream and the sacrifice of the Tiananmen 
protest. China's freedom, which I believe you, the chairman, 
and the members of the committee will bring about, just as 
Ronald Reagan did to the Soviet Union, will not only bring 
freedom to people of China, perhaps even more importantly it 
will be to the peace and freedom it will bring for the people 
of the world. The greatest issue that will define the nature of 
the 21st century will be the question of whether democracy and 
freedom come to China. If China is free, the 21st century would 
likely to be defined by competition to see who builds better 
cars and computers, but if China remains a dictatorship, it 
could be even more bloody than the 20th century.
    So the fight we fight here today is not only a fight for 
the people of China, it is a fight for the freedom of our 
children. It is a fight to determine whether our children will 
live in a world of peace and freedom or in a world of 
censorship and totalitarian regimes. These are the large 
questions that we are dealing with. But there are some concrete 
steps that this Congress can take to help move China closer to 
freedom and democracy. The first issue is Internet freedom. As 
the Communist regime realizes, the very life of the Communists 
ruling depends on the lies promoted by the firewall, the 
Internet firewall. And that is even more important than the 
armies and the jails in China. So any measure that we can take 
to promote Internet freedom, technologies that help circumvent 
the firewall, will bring truth to China. Every year I meet 
young Chinese, and this year, many teenagers, who talk to me. 
The first thing they did, arriving in the United States, was to 
look for information about what happened 25 years ago. And they 
will change because of that. They will see hope and a dream. 
And there is a lot we can do.
    Specifically, I would ask BBG to allocate 10 percent of its 
funding to the technologies that will circumvent the Internet 
firewall. Second, globalization was a major cause in the 1989 
protests, but Chinese, ordinary Chinese, have been taken as 
hostages, and trade and the investments have been used as a 
tool to promote dictatorship and the corrupt universal values. 
Many Chinese companies are de facto government organizations. 
And it is through such arrangement they became powerful, 
profitable monopolies, which Western shareholders may like to 
invest in. But in doing such, we are allowing commerce to be 
part of the crime that Communists are committing. There is a 
lot we can do to promote true free trade and a free market.
    Third one, recently there are a lot of rejections of visas 
for the foreign journalists in China. This will no doubt create 
censorship and self-censorship for foreign journalists. At the 
same time, more and more Chinese state-owned media are setting 
up shops in the United States to broaden the reach of the 
brainwashing. This issue cannot be left to the media alone.
    For example, Bloomberg, which reported on the hidden wealth 
of the ruling families, admitted that they will never do that 
again. And the journalist who was trying to publish such a 
report had to leave. At least U.S. should firmly raise the 
issue of reciprocity as a strategic option in journalism visa.
    Fourth, U.S. should reject entry visas to perpetrators of 
human rights violations. With the help of the Internet, we are 
able to gather information on these who actively and willingly 
participate in persecution of the dissidents, including those 
who killed protesters in 1989. We are able to name one of the 
persons who was in the tank that ran over people on the morning 
of June 4. As we know, daughter of current President could 
still be in Harvard. And rejecting entry visa will be a 
powerful way to help these freedom fighters in China. Thank 
you.
    Mr. Smith. Thank you so very much, Mr. Zhou.

    [The prepared statement of Zhou Fengsuo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                      ----------                              

    Mr. Smith. I would like to now ask Mr. Chen Qinglin.

            STATEMENT OF MR. CHEN QINGLIN, ACTIVIST

    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. Good morning, Mr. Chairman, and members of the 
committee. Thank you for having me to testify before the 
Congress today. In the early hours of 1989, June 4, I witnessed 
a girl student and boy student were killed and shot on the 
Chang'an Avenue in Beijing, and a worker named Zhang Bin legs 
were crippled by the soldiers. And this bloody tragedy leaves a 
huge trauma in my heart that has never been healed. And on June 
4, 1990, in Peking University, my friend at the university, Li 
Minai and Peng Rong were arrested for their first anniversary 
activities on campus. And I was summoned by the police for 
harboring a suspect in my university dorm.
    On June 6, 1992, Mr. Hu Shigen and a few dozens, including 
me, were arrested and put into prison for 3 years on the charge 
of political assembly and party establishment. And again, 
October 1997 I was put behind bars again for 40 days for 
publishing material relating to the 1989 democracy movement. 
And in June 1999, I was summoned many times by the police for 
participating in the 10th anniversary of the 1989 movement, 
along with Mr. Jiang Qisheng and Meng Yuanxin. And in 2006, a 
group of the 1989 generation were expelled out of their city 
Beijing for establishing an environmental NGO called Guardian 
Spirit. And these victims, including Liang Xiaoyan, Professor 
Li Oun, Wang Junxiu, and a few others. And in 2008, as one of 
the first signatories of Charter 08 initiated by Dr. Liu Xiaobo 
and Zhang zuhua, and I was summoned by the police. And on 
February 2, 2014, Ms. Chen Wei and I participated for the 25th 
anniversary of the massacre of 1989 movement, in memory of 
those victims, I was summoned twice and threatened with arrest.
    And on May 5, 2014, as soon as I landed in this country, on 
the invitation for the 25th anniversary activities here, I 
learned of the arrest of my friend, including Mr. Hu Shigen and 
Yu Shiwen were arrested. And a scholar such as HAO JIAN and 
various different lawyers were also arrested for the first 
time. And some of my best friends, like Yang Hai and Chen 
Tianshi and Peng Rong and Ding Mao and a few others were either 
under house arrest, or forced to be on the road, or summoned, 
or being warned with a written promise not to do things during 
this period.
    It has been 25 years since the violent crackdown of the 
1989 democracy movement. The Communist regime has continued its 
crude efforts to repress the generation of 1989. And why? We 
want to know why. And the reality of the past 25 years have 
proved that the ruling Communist Party after the June 4th 
massacre has no respect for God, no responsibility for the 
masses, and no historic senses for the future generation.
    And following the massacre of June 4th, the ruling regimes 
there has utilized all its resources and tools to crash the 
Chinese people's dream for democracy and the rule of law. And 
the government ruled out the possibility of a peaceful 
democratic transition through peaceful dialogues, and has 
continued its rule by a strong man, which has dramatically made 
the Chinese pay huge costs of governance. And in these years, 
the activities from all walks of life in China has been 
arrested, and they include underground house church priests and 
rights of defense lawyers and college teachers, as well as 
business people who have never given up their dream for a 
democracy for which the Chinese people have been fighting over 
100 years. And this generation, including the Wang Bingzhang 
and Gao Zhisheng have been fighting for over 25 years and they 
never give up the hope. And I hope that the international 
community and those of justice shall not appease the evildoers 
while showing their support for the forces of good. God bless 
the United States, God bless China. Thank you very much.
    [Chen Qinglin did not submit a prepared statement.]
    Mr. Smith. Thank you so very much. We have an hour-long 
series of votes coming up at between 11:15 and 11:30. So what I 
thought might be an idea, maybe we could just take notes, would 
be to have all of us ask a series of questions. If there is 
still time, we would go to a second round. But an hour's worth 
of votes plus will be preclude it after that and reconvening. 
So I thought I would lay out some questions, ask my 
distinguished colleagues to do likewise, and if you wouldn't 
mind answering those questions. Would that be agreeable to the 
members? I would not want to run out of time so we couldn't get 
to everybody.
    Let me ask first a threshold question about missed 
opportunities. Frank Wolf and I traveled in 1991, just a couple 
of years after Tiananmen Square, went to Beijing Prison Number 
One. There were 40 Tiananmen Square activists there at that 
terrible gulag inside of Beijing. And they wouldn't let us meet 
with them. They looked, with their shaved heads, like Auschwitz 
inmates. It was a terrible, terrible observation that both of 
us made while we were there about the mistreatment.
    Candidate Bill Clinton, when he ran against what became 
President Bush, made the point that he thought that the first 
President Bush, was coddling dictatorships. Brent Scowcroft 
made a quick trip over to Beijing after Tiananmen, assured them 
in ways that I find totally unseemly and appalling. So I say 
this as a preface, that I have always, and I know Mr. Wolf and 
all of us, don't see this as a partisan issue, but if somebody 
on one party's side or the other enables, wittingly or 
unwittingly, these horrific abuses, they need to be called to 
task for it.
    Well, when Bill Clinton got into office, we had the votes 
to take away Most Favored Nation status away from China because 
of Tiananmen Square and the human rights abuse that was 
proliferating and getting worse by the day. He said don't vote 
on that. I will issue an Executive order. And it was a great 
Executive order that listed all the human rights benchmarks, 
including significant progress in each of those areas. Halfway 
through the year of review, I traveled to Beijing, and I was 
told bluntly by Chinese leaders that they are getting MFN with 
no conditionality, that this was a bluff. I didn't believe it. 
And I had a letter signed by 100 Members, including Mr. Wolf, 
and Nancy Pelosi, 100 Democrats and Republicans, presented that 
to them, and the Chinese official with whom I was meeting 
looked at it and laughed. He said the fix is in.
    Sure enough, in late May, and as a matter of fact, it was 
about as cynical as it gets, on a late Friday, President 
Clinton took his Executive order, ripped it in half, and said 
it is no longer operative. We lost the ability to pass MFN 
removal, and the Chinese Government got away with murder. As I 
said earlier with regards to Dr. Yang, a few years later the 
butcher of Beijing was at the White House being feted like a 
potentate with full military honors. Like I said, he should 
have been sent to The Hague for prosecution for crimes against 
humanity, and was carried around on a pillow. I say all of this 
because now we have a situation where just in December we had 
five daughters sit where you sit, all of their dads were being 
tortured in China, including Gao Zhisheng. They said our appeal 
is to Beijing, let our fathers go. Then they turned around and 
said our appeal is to President Obama. Meet with us. You have 
two daughters. You will understand. Our dads are being 
tortured. We love our dads. We want to be with them. We sent 
over a letter, multiple phone calls, and the word back was 
President Obama doesn't have the time to meet with the five 
daughters, which I found to be and continue to find to be 
appalling.
    Meanwhile, when Hu Jintao came to the United States, he met 
with the President and was asked questions about human rights 
at their joint press conference. And the Washington Post did a 
scathing editorial in which they wrote President Obama makes Hu 
Jintao look good on rights. And as was observed by the 
Washington Post on January 19, 2011, the most significant 
statements at the joint news conference of Obama and President 
Hu Jintao on Wednesday came in response to questions about 
human rights. They point out that Hu Jintao was more 
forthright, that it was our President who defended the 
situation in China. Mr. Obama retreated to the administration's 
approach to minimize the issue. He says there has been an 
evolution in China over the last 30 years. Yeah, it has been a 
deterioration. They have had economic gains, definitely 
military and security gains, at the expense of fundamental 
human rights.
    And Dr. Yang, you made an excellent point that as far back 
as 1992 that the three realities of Deng Xiaoping, one of them, 
the third one you say was to rely on capitalizing on the dark 
side and evil side of human nature, spoiling the elite in 
exchange for their loyalty. So give them money, and they are 
the colonels who take off their uniforms and then run a 
business on the side, and they make money hand over fist and 
repress the people. They also point out that the President 
never mentioned Gao, did not bring up Liu Xiaobo, the Nobel 
Peace Prize winner. And it is just a scathing editorial. 
Without objection, I will put it in the record. But missed 
opportunities.
    He wouldn't meet with the five daughters. I don't know what 
he is going to say. He is the leader of the free world, a Nobel 
Peace Prize winner, and it seems to me--and again, Mr. Wolf and 
I, time and again when George Bush had his 8 years in the White 
House, when he wanted to go to the Olympics, we demanded that 
he meet with the dissidents before he went to the Olympic 
Games. We went over and raised human rights with everyone with 
whom we met. Missed opportunities. We can't enable 
dictatorship.
    Sadly, I think President Obama and even Hillary Clinton, on 
her first trip to China as Secretary of State, she said I am 
not going to let human rights interfere with global climate 
change talks and selling the United States' debt. So, you know, 
the Post, hardly a conservative newspaper, took the President 
to task and hope springs eternal, he can change, he can pivot. 
Our President needs to speak boldly, and he has not done so. 
And I hope maybe he will. The 25th anniversary certainly is an 
engraved invitation for him to do so.
    I will also just make one other point and then yield to my 
colleagues. You mentioned, Mr. Zhou, about visas. I wrote a law 
in 2000 that says we will withhold visas to those who were 
involved or complicit in any way with the forced abortion 
policy of the People's Republic of China. We checked with the 
Congressional Research Service and asked how many visas have 
been denied? And this is during the 8 years of George W. Bush 
as well. Less than 30. So again, we have an example now of a 
law that is not being enforced. And there are people who are 
abusing women, the likes of which we have never seen, who we 
can at least deny a visa to, and send a message that we will 
not tolerate that kind of abuse. I would like to yield to Mr. 
Pittenger.
    Mr. Pittenger. Thank you very much, Chairman Smith. Major 
Yan Xiong, thank you for your service.
    Major Xiong. Thank you, sir.
    Mr. Pittenger. What an amazing past that you have had. And 
the dedication and leadership that you gave to your own country 
is--surviving Tiananmen Square, and being in prison, and then, 
of course, coming to the United States, and after 2 years here 
serving in our military, and now a chaplain. What an amazing 
story. I would like to better understand, of course, you are 
very much involved in the underground church, of which I have 
been a part of for many, many years. And I would really like to 
understand the movement toward democracy and the freedom of 
religion, and what America can do to better encourage that. I 
have spoken out extensively, met with some of the Chinese 
leadership here, even at a dinner last night. And this is very 
much in my heart. As I said earlier, America has her own 
problems.
    So I don't want to come in the spirit of being 
condescending. Ronald Reagan said it well, we have our own evil 
to deal with. But nonetheless, the church has grown 
exponentially in China under enormous oppression. It hasn't 
decreased, from what I have observed and known of. But I would 
really like to know further what we as Americans can do to help 
those fellow believers in China.
    Mr. Smith. Thank you for that. If you could, just so we 
don't miss with the vote. Mr. Weber, and if you can take notes 
and answer the questions if you would. Mr. Weber.
    Mr. Weber. Major, you said in your comments your disclaimer 
up front was that the views you were about to express were your 
own, and not the United States Army's. And my question is, how 
in the world do we get those views to be expressed by the 
United States Army, and even more deeply held, that kind of 
commitment to freedom and passion that you hold?
    So don't ever apologize for that as long as I am around, 
because I think you are on to something. So I appreciate that. 
I think you said that you spent some time in jail. So my 
question to you today is how did you feel the first few days 
when you spent time in jail? Were your efforts in vain? Did you 
have any way of knowing you would be--did you think or believe 
you would be here today? How did you feel a month later and 
then a year later? And are you able to share that back home 
with people who might be getting discouraged? I am going to let 
it go at that. We are short on time, Mr. Chairman. I am just 
going to let it go with that. I am very interested. Thank you.
    Mr. Smith. Mr. Weber, thank you. Mr. Stockman.
    Mr. Stockman. You know, I am very interested, Mr. Zhou; you 
were talking about the Internet, and I was interested in your 
opinions on the United States giving up control to Russia and 
China of ICANN. As you are probably aware, or maybe not aware, 
we decided to abdicate our responsibilities, and we are going 
to allow China and Russia to help control the Internet. Also, I 
would like to know which companies in the United States, some 
of which I think are Cisco and some others, have given routers 
and systems to track down dissidents in China. I would like you 
to, if you could, or anybody here on the panel, could describe 
which of those companies in the United States are helping the 
PLA suppress individual rights? Thank you.
    Mr. Smith. Thank you very much, Mr. Stockman. Chairman 
Rohrabacher.
    Mr. Rohrabacher. I would just like to express my solidarity 
with you again. And you should never feel that you are alone. 
And I send this message to the people of China through you, 
that we, some of us, I share your Christian faith, but I think 
you could be atheist, or be Buddhist, or be other faiths as 
well, because what we are talking about is the basic freedom 
for people to make those choices, their spiritual choices that 
really count. And I am embarrassed that some people in my own 
party put money and profit over those values that our country 
stands for. But believe me, there are many, many other 
Americans who are willing to sacrifice even economic profit in 
order to reach out and stand in solidarity with brothers and 
sisters who are struggling for liberty and justice in China and 
elsewhere. So I just would like to express that solidarity to 
you and to the people of China through you. Thank you.
    Mr. Smith. Chairman Rohrabacher, thank you very much. I 
would like to yield to the chairman of the Commerce, Justice, 
Science, and Related Agencies Subcommittee of the House 
Committee on Appropriations, Mr. Wolf, who by the way was on 
the floor until past midnight last night with his 
appropriations bill after what, 15 hours of debating amendments 
to that. So grateful that he was able to make it today.
    Mr. Wolf. Well, thank you. I don't have a question. I just 
want to thank you for your tenacity and your bravery and your 
courage. And I found the testimony fascinating. And really I 
just want to thank you. I want to thank you. And secondly, I 
want to--and this really, the idea came from Mr. Rohrabacher. I 
want to thank Mr. Smith. Dana said Mr. Smith should be 
nominated for the Nobel Peace Prize. And Mr. Smith has done 
more on these issues than any other Member of Congress that I 
have ever served with. So I just want to thank Mr. Smith for 
being tenacious and just staying there. I think did Dana has a 
great idea. I think Members ought to circulate a letter 
nominating Mr. Smith for the Nobel Peace Prize. But again, 
thank you for your courage.
    Mr. Smith. Mr. Wolf, thank you very much for that. But 
frankly, we are here to hear from the five heroes from 
Tiananmen Square. If you could begin to answer some of those 
questions. Dr. Yang.
    Mr. Yang. Thank you. I totally agree with you, Congressman 
Frank Wolf, about Congressman Smith, our great leader here. And 
I want to respond to your comments about the missed 
opportunities. Truly, there were missed opportunities in the 
1990s in the aftermath of the Tiananmen massacre. As we can 
remember, just not long after the end of the Cold War, China 
was very weak, was very much in need of almost everything from 
Western democracies, especially the United States, 
economically, politically. And China was very isolated because 
of the massacre. But I think there was a theory prevailing, and 
even it is prevailing today, that China's economic progress in 
trade would inevitably result in more political freedom and 
guarantee the basic human rights. But the experience of what 
happened in China in the past 25 years certainly has not proved 
the theory.
    The theory does not seem to work in China, at least does 
not work in the time framework that we want it. There is 
something missing there. And in 1989, we did have opportunity 
for an autocratic regime to collapse or to have a major change 
in the political system. Usually, it takes three conditions to 
become present at a certain time: Political crisis, viable 
democracy movement, and international support. Of course, there 
was political crisis for the regime. And the democracy movement 
at that time, at least for that 2 months, was very viable. But 
what we were lacking at that time was strong enough 
international support.
    So international community, of course, all together 
condemned the massacre, but the international community did not 
realize that China's people's desires for freedom were really 
strong and real. And the moment was there. But we missed that 
moment. And over the past 25 years, the international calculus, 
not only the Chinese intellectual elite and economic elite, 
have been co-opted by the Chinese Government. International 
capitalists have also been co-opted.
    And I always tell my friends China now is holding China as 
hostage, and also at the same time, abduct the international 
capitalists. And these international capitalists come back to 
their own countries, for example, the U.S., acting as 
apologists and lobbyists for China's Government. That is what 
is happening. So what can we do about it? I think it will never 
be too late to do the right thing. And yesterday, the 
congressional highest level bipartisan press conference made it 
clear that human rights are never partisan issues. So, you 
know, this is a great sign that two parties, the leaders of two 
parties come together to get the right message across to China 
and the rest of the world.
    And that we remember what the heroes did in China, and we 
know that their demands have not been fulfilled in China. So 
the cause is going on. And we, I mean the U.S. and Americans, 
should openly and expressly express support for the activists 
in China. And as my friend Zhou Fengsuo said, the U.S. Congress 
should pass a bill to have a travel ban on those individual 
human rights violators in China. And in the past year, the 
Congress passed the Magnitsky law, which imposed on the Russian 
human rights abusers a travel ban and also a freeze of assets. 
We should have a similar bill about China. China, in many ways, 
is a much worse human rights abuser. So I think that we have a 
lot to do together to improve China's human rights situation. 
Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much. I just point out, before 
going to the other answers, we are working on a bill that would 
do just that. But secondly, we have called on the Obama 
administration to enforce the law as it exists today, which 
bars visas to those who are complicit in the horrific one-
child-per-couple forced abortion policy. And they have not 
enforced the law, sadly. But we will follow up. And I know you 
know we are working on that. It is a great idea. Thank you.
    Mr. Yang. Thank you, Mr. Chairman.
    Major Xiong. Good morning, sir. Thank you so much for your 
encouragement. And I am very grateful to be here today, and I 
am very grateful to be a U.S. citizen. I am so proud to serve 
our country for 20 years. However, by God's grace, and with 
your help, someday I still have my dream to come back to China 
and fight for democracy, human rights, and freedom. Of course, 
we trust in God. To answer your question, the first question I 
remember, it is what can we do for helping the Chinese house 
church or other religious groups? We can do a lot of things. 
When you have a voice, you have authority, and you really have 
a wonderful influence on China. Even that bad government, they 
pay attention to you. And when you say one word. Presently in 
the jails they get a little bit better, the conditions. It is 
all we can do. Concretely, I have some suggestions for all of 
you.
    You know, in China right now even the Communists can still 
persecute any religious group. But by God's grace, a lot of 
people, they know the real Creator is not of the Communist 
Party, is not of the political party. So more and more people, 
they turn to God. So U.S. Congress can do first, continue to 
pay attention to those who are persecuted. And I think maybe 
you can give a little bit more visas to the ministers, the 
religious leaders. It will be easier to come to U.S. with a 
visa to this country and get a formal religious or theological 
training or study. That is really good.
    Of course, we still pay more attention to those who are 
persecuted right now in jail. That is we can do a lot of 
things. I can say, well, you say one word here. Oh, that is a 
lot of influence, good influence on the world. That is the 
first question.
    The second question I remember, you asked me my personal 
experience. Of course, when I was in jail, the PLA, the enemy, 
used an AK-47 and hit on my back. At that moment, it seemed the 
whole world, the U.S., should pay attention to the prisoners, 
the students in jail. So relatively it is much, much better 
than if we do not pay attention. I know some cases right now. 
When we do not pay attention their prison conditions are 
horrible. Physical abuse, physical torture, unreasonable 
torture that you can't imagine. So please, please. Can you 
imagine, I still have too many inmates that are still in jail 
right now. Of course they are released, then put in jail again, 
like Mr. Chao Wei, Mr. Chou Chen. They are my inmates. They are 
still in jail right now. The names, Wo Ping Chang, Liu Xiaobo, 
Cho Mi, a long list. So please pay attention to them, and you 
can save them. And another thing, another question I would like 
to answer is talk about U.S. Army, oh, I love U.S. Army. I was 
so proud to serve as an Army chaplain, a major.
    Of course as an Army soldier, I can exactly 100 percent 
follow the Army regulations. But if they still give me the 
floor, they still encourage me, but the opinion or the view 
today, I am just representing myself. That is how I am going to 
answer your question, sir. Personally, I really--I have one 
personal story. The Communist persecution happens in different 
ways. Like myself, I haven't been able to see my mother for 
many, many years.
    A couple years ago, every time I want to call my mother, my 
mother repeated one question. Of course, she speaks Chinese. 
She says, my son, when are you going to come see me? I said 
momma, very soon. The spring of next year. But recently, she do 
not ask that question more when I call her. When I call her, 
momma, I am Yan Xiong, your second son. She hung up the 
telephone. My father told me she lost most of her memory and 
cannot recognize me any more. I preach in the chapel, I will 
say, you know, when we get into heaven, my mother will 
recognize me. I say, hey, that is my son. When I get in heaven 
I will say, hey, that is my mother. That is our hope. But a lot 
of tragedy. As my best friend, Mr. Chin Chin will say, He 
experiences, we all listen. When we have a voice here, when you 
have a voice here, China will be changing. Thank you so much, 
sir.
    Mr. Pittenger. Thank you.
    Major Xiong. Thank you.
    Ms. Chai. I would like to address two questions. Do we have 
missed opportunities? And the second one, yeah, how can America 
do more to support? Yes, America indeed missed a great 
opportunity from the very beginning on the night of June 4th. I 
was there with my last 5,000 students in Tiananmen Square. My 
position at the time was commander-in-chief of the Defending 
Tiananmen Square committee, while my colleague was blocking 
troops on the streets. We stood on Tiananmen Square until 6 
a.m. We were hoping America would come to help us. And America 
never came.
    I was heartbroken, after 10 months in hiding, after 
spending 105 hours in a cargo box, until I was able to finally 
come to America. The first thing I did was come to Congressman 
Chris Smith, and your hearing, and I asked, ``Where is 
America?'' I did not get an answer. Later on, when the former 
Ambassador to China, James Lilley, came back, I went to see 
him. I said, sir, why? Why did America not come? And he said, 
off the record, ``They do not care.'' I was heartbroken. But 
that was the unfortunate truth, because at the time, President 
George Herbert Walker Bush sent Scowcroft immediately after the 
massacre. Scowcroft went to visit not the people, not the 
victims in prison, not the victims' families, but the dictators 
who ordered the massacre.
    I visited Vice President Dan Quayle. I expressed my deep 
regret and disappointment. He apologized, and said, ``We are 
sorry.'' But that was not enough to represent who America was 
supposed to be, which is one Nation under God. What we were 
supposed to do was act justly and have mercy for the Lord our 
God. That is the America we knew. That is the America we had 
hoped for. That has not been the America I've known the past 25 
years.
    So today is a new day. It is a different day. Starting from 
yesterday, when Speaker Boehner, and Democratic Leader Nancy 
Pelosi, and Congressman Chris Smith, came together, you came 
together representing this great, amazing Nation to support 
those who struggle and fight for freedom but have not given up 
hope. The most beautiful thing is that even though America did 
not come, God came to America. God came to each one of us, each 
of us with our undying, unshaking hope.
    Mr. Pittenger, I love what you just said here. Belief. I 
would encourage you all to speak about your belief to the 
Chinese and to Americans. I do not understand America's First 
Amendment to prohibit government to promote a religion, but 
also to not prohibit any religion. I was in America for 19 
years, and never heard God from the schools. I went to 
Princeton and Harvard. I went to entrepreneurship, Wall Street, 
and consulting firms. I went to Congress. I read media reports. 
I rarely heard about God, and rarely heard about Jesus. I had 
to come to faith through hearing the story of a man, a Chinese 
house church leader who was persecuted in China over and over 
again, and because of his faith, God has done amazing miracles. 
He was sent to prison and he fasted for food and water for 74 
days. God did not allow him to die, but restored him to life.
    The third time he was in prison, his two legs were broken. 
He cried out to Jesus saying, ``You want me to preach? How can 
I do that?'' He felt Jesus come in and say get up and go. He 
got up 8 a.m. in the morning. Facing all of the machine guns 
staring at him, he walked past the guards and through three 
metal gates. The guards saw him, but did not stop him. He came 
to the street. A cab driver came to him, saying, ``Where do you 
want to go?'' He said, ``I was given this address in my dream. 
Go there.'' By the time they got to that place, the brothers 
and sisters said, ``Brother, the Lord gave us the news that you 
would be coming here. We shall prepare a hiding place for you. 
And let's go there.''
    Within half an hour, he was escorted from prison into a 
safe house. When he sat down to eat his breakfast, he realized 
his legs were healed. That was the moment I realized that this 
God is the God I have been searching all my life. I was a 
Buddhist when I was being rescued by those courageous Buddhist 
people in China who risked their own life to save mine because 
they believed in saving lives above all other callings. They 
didn't even want to kill mosquitoes. That is why they risked 
their lives to save me. They became the first two people that 
expanded to a 200 people network. But during this 10-month 
intense search, while there was a great reward out there for my 
head, none of these families betrayed me.
    And so I thought I would witness. Until one day, I was 
witnessed to by Jesus, and started asking questions, ``Is your 
Jesus similar to or different than my Buddha?'' And I was 
finally given a chance to know this God and walk with God. And 
I do encourage all American leaders to exercise your freedom of 
speech and freedom of religion, and to not only share your 
faith, but also work on your faith with your policies, with 
your decisions, and with your support. Thank you.
    Mr. Pittenger. God bless you, my sister. I am honored to be 
called your brother in Christ. And I apologize for how we have 
gravely disappointed you and many other believers. I hope we 
can do better.
    Ms. Chai. Thank you so much. I am also a sinner, so I 
forgive the American leaders, just as I have forgiven the 
leaders of China and the soldiers who killed us. But with God, 
I have hope for truth and reconciliation one day.
    Mr. Pittenger. I hear your spirit, and I sense that from 
Major Xiong, of his spirit of forgiveness and understanding of 
those who wrongfully hurt him in the past as well. Thank you.
    Ms. Chai. Thank you. Thank you, brother.
    Mr. Zhou. Talking about lost opportunities, I think China 
joining WTO was a major event. And prior to that, Mr. Bush's 
secret mission to Deng Xiaoping after a few months after 
Tiananmen massacre, these two events to me I think basically 
changed the landscape of a lot of things. I was released during 
the first debate of Most Favored Nation status here in the 
United States, the first year after Tiananmen massacre, a week 
before that. And together with me, many others were released. 
When China joined WTO, this leverage was lost completely. And 
for now, I think the international community has not figured 
out a way to deal with these corrupting force in global trade 
and investment, where on one side you have this totally terror 
regime which uses trade and investments as a weapon to promote 
their values, and you have U.S. policy that is not dealing with 
it.
    For example, you know, Microsoft in their Bing search, they 
will ban something completely irrelevant just because it is 
very remotely related to the tank man image in China. This is a 
U.S. company that is following the dictatorship of Beijing. And 
you also have brave companies like Google who refuse to do 
business in China, to stand up for its principles. Talking 
about lost opportunities, I reflect on this a lot. I think for 
our protesters, there were a lot of opportunities. The 
Tiananmen massacre was a tragedy that a small faction of the 
ruling families clustered around Deng Xiaoping, mastermind of 
the massacre, without a proper procedure even within the 
Communist Party. And it overruled even its own, the majority of 
its own people. Hida Talxian, for example, stayed with the 
protesters on Tiananmen Square. I don't think the troops will 
come. And also, even this year I had the honor or pleasure of 
meeting the daughter of a high ranking official who openly 
rejected the Tiananmen massacre, objected to it, and lost his 
position. And what is even more encouraging is that 2, 3 years 
later, the Chinese Congress, the Ren Da, when they vote they 
show their support to this guy by rejecting the party-nominated 
member. And today, I mean this year, I just realized this 
happened to another province too, where when there was an 
election, even the party-controlled assembly, they voted down 
someone who was with the killing and voted for the people who 
are against it.
    So it was a losing opportunity for Chinese. It is a small, 
tiny portion of the ruling class that overruled the people's 
will, and even the majority of the Communists. And even today, 
Tiananmen protests remains one issue that can unify Chinese for 
a better China. This is where there is majority support from 
the ordinary people, and anyone who is sincere about reform in 
China. I am pretty sure about that. Thank you.
    Mr. Smith. Let me just ask, we do have the call to the 
floor for the votes, and then any final comments by my 
colleagues. About 8 years ago, I chaired a series of hearings, 
we had Cisco, Microsoft, Yahoo!, and Google, and he swore them 
all in, because they were infamously censoring practically 
everything that went on the Internet, and doing other things, 
particularly Cisco, in helping with the ability for command and 
control for the secret police, which was a terrible enabling. I 
showed on the TV, we did a live demonstration using the Google 
search engine for China, and typed in Tiananmen.
    We got nothing but pretty pictures, including the Secretary 
of Commerce from the United States, happy people. Nothing 
whatsoever about Tiananmen Square either on the images part or 
on the actual search engine for news or Web site information. 
All blocked by U.S. companies. I asked a series of questions. 
They couldn't give me a reason why they were doing it other 
than they are following Chinese law. So censorship remains a 
huge problem.
    Dr. Yang, you might want to very briefly speak to the fact 
that people in China still don't know, particularly the young 
people who are brought up in a totally propagandized country, 
where the Internet and the great firewall precludes that 
information, how do we pierce that wall to get the information?
    Secondly, Xi Jinping has said that China suffers ``moral 
decay,'' and yet the persecutions of the Christians, 
particularly the underground Christian church, the Uyghurs 
Muslims, the Falun Gong, and the Buddhists in Tibet, has gotten 
exponentially worse in the last few years. It was already bad. 
And yet Frank Wolf, who wrote the International Religious 
Freedom Act, the U.S. Commission on International Religious 
Freedom chairman, Robbie George, testified May 22nd, right 
here, and said that we have not had a designation of CPC 
(Country of Particular Concern), egregious violators, since 
2011. And that means China, and the enforcement, and in the 
bill that Mr. Wolf wrote, there are approximately 18 
enforcement actions which are very significant are not being 
applied to China or anywhere else as a direct result of that. 
We practically begged the administration to get serious about 
religious persecution globally, including especially in China, 
but they have not even renewed the designations of the eight 
countries that were on the list, and the other eight that ought 
to be on it according to the Commission. Would you speak to 
that, maybe Dr. Yang? And again, you mentioned the Internet, 
Mr. Zhou. And anybody else. My colleagues want to make any 
final comment before we go?
    Mr. Yang. Thank you, Mr. Chairman. China, like all 
autocracies, continues its rule depending on lies and violence 
and corruption. And so controlling information is the major 
strategy that helps to continue its rule. So information is 
power. It is very important. But what I want to say first, 
before I get to the Internet, is that people do not have to 
know Tiananmen massacre to know the truth of their government. 
Because they live this government in everyday life. So they 
understand the nature of the government. So they demand for 
dignity and freedom. So they don't have to know the truth about 
the massacre, the Tiananmen massacre to know the situation in 
China.
    But anyway, information will help them to stand up for 
their rights. So I heard that the bill going on introduced in 
the House about helping the Internet freedom in China with a 
big budget. And we really, at this moment, want to call on all 
the Congressional Members and the leaders to realize the 
importance of Internet freedom for the people on the ground in 
China. And these resources can help the people develop 
technology needed, necessary for people to get around the 
firewall, to get information forbidden by the Chinese 
Government. So thank you for support for that bill. And I want 
to come back to the topic which you talked about earlier. And 
unlike my friends Chai Ling, Yan Xiong, and Zhou Fengsuo, I am 
not naturalized. I am not a U.S. citizen, I am a Chinese 
citizen still. And I don't think I am in the position to 
criticize the U.S. Government and American people for not doing 
enough for us.
    So a democracy movement must be homegrown. We must do our 
own job. But what I want to talk about is not that. Some people 
believe that the United States cannot press China on human 
rights issues because the U.S. seeks China's cooperation on 
economic and national security issues. So we are talking about 
the national interests of the U.S. When we are talking about 
national interests of U.S., we all talk about the economic 
business opportunity for American capitalists in China. So, you 
know, if Americans do not do business there, if we don't 
cooperate with the Chinese Government, others will go as well. 
But I often urge my American friends, here, you are my American 
friends, and you are in military service, have you ever done a 
calculation how much American taxpayers' money would be saved 
if China became democratic?
    So remember, China is a dictatorship. With its fast 
economic growth, military expansion, its recent behavior in 
Southeast Asia is really disturbing. So I want to ask this 
question again. Have you done any calculation on how much money 
would be saved if China became democratic? This is about the 
national interests of this country, not about Chinese citizens. 
Thank you.
    Mr. Smith. Mr. Wolf, we are out of time regrettably with 
the votes having begun. I ask unanimous consent that Pastor Bob 
Fu's statement be made a part of the record.
    I have always believed that it takes two essential elements 
for a dictatorship to prosper, sadly, and those are to control 
the flow of information, propaganda, and secret police, and 
when we enable either of those, and we have enabled without any 
reasonable doubt the propaganda side through our own self-
censorship through these corporations, we have done a grave 
injustice to the Chinese people.
    We are out of time I deeply regret, but I want to thank all 
of you for your extraordinary humanitarian service to your 
fellow sufferers in China, because I am sure the burden that 
you carry is very deep and very strong, but also to the rest of 
the world because China is spreading its bad governance model 
to much of Africa. I have held hearings on how they are 
enabling dictatorships like in Sudan with Bashir and many 
others, so a free and democratic China will be a force for good 
not just for the Chinese people, but for the rest of the globe, 
and I think we have to redouble our efforts as never before on 
the 25th anniversary.
    I disagree with President Obama that they have made 
progress in the last 30 years. They have made significant, 
significant regression, and it is a race to the bottom with 
North Korea when it comes to human rights, and it is about time 
this country spoke out with some boldness to think that Liu 
Xiaobo, and I was one of the ones, I led the effort in Congress 
to name him as Nobel Peace Prize winner. We had two others on 
that, Chang Gaungcheng and Gao Zhisheng, and really all of you 
should be on that as well as prisoners of conscience and as men 
and women of great, great character.
    Liu Xiaobo is in prison, and the President doesn't raise 
that effectively, never publicly when he is with Xi Jinping or 
anybody else. Those days of hiding under the sand have to 
change, and this is a new appeal to the President, and again 
meet with those five daughters, and that he should meet with 
the five of you at the White House to talk about human rights 
in China, and we will make that request as well. Thank you. The 
hearing is adjourned.
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  Material submitted for the record by Yang Jianli, Ph.D., president, 
  Initiatives for China

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
